           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



     CREATIVE ALTERNATIVES -
AN ORGANIZATIONAL REPRESENTATIVE
          PAYEE FOR THE
 SOCIAL SECURITY ADMINISTRATION


    June 2004    A-15-04-14033



 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   June 25, 2004                                                                    Refer To:

To:     Laurie Watkins
        Regional Commissioner
         Philadelphia

From:   Assistant Inspector General
         for Audit

Subject: Creative Alternatives - An Organizational Representative Payee for the Social Security
        Administration (A-15-04-14033)

        OBJECTIVE

        Our objectives were to determine whether Creative Alternatives (CA) (1) had effective
        safeguards over the receipt and disbursement of Social Security benefits and
        (2) ensured Social Security benefits were used and accounted for in accordance with
        the Social Security Administration’s (SSA) policies and procedures.

        BACKGROUND

        Some individuals cannot manage or direct the management of their finances because of
        their youth or mental and/or physical impairments. Congress granted SSA the authority
        to appoint representative payees to receive and manage these beneficiaries’1
        payments.2 A representative payee may be an individual or an organization. SSA
        selects representative payees for Old-Age, Survivors and Disability Insurance (OASDI)
        beneficiaries or Supplemental Security Income (SSI) recipients when representative
        payments would serve the individual’s interests.

        CA is a nonprofit organization funded by a grant from the State of Maryland Department
        of Health and Mental Hygiene and Baltimore Mental Health Systems. CA is part of the
        Johns Hopkins Bayview Medical Center Community Psychiatry Program. CA assists
        adults who have serious and persistent mental illnesses. CA’s program combines
        mental health treatment, rehabilitative services and assistance with daily living. From
        July 1, 2002 through June 30, 2003, SSA paid CA $674,066 as the representative
        payee for approximately 100 SSA beneficiaries. Once CA is selected as the
        representative payee for a beneficiary, it assists clients to develop a budget for food,


        1
          We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI
        recipients.
        2
          42 U.S.C. §§ 405(j), 1383(a)(2) (2002).
Page 2 – Laurie Watkins


shelter, and clothing. The Entitlement Coordinator establishes and monitors each
client’s personal account. Most of the client’s expenses are subsidized through CA’s
grant program.

SSA mails beneficiary checks directly to CA. Once the checks are received, they are
stamped for deposit, recorded on the deposit ticket and photocopied. The check
amounts are recorded in each beneficiary’s financial record. The beneficiary checks are
sent to the Bayview Medical Center to be deposited in the bank. Because CA is part of
Bayview Medical Center, it does not have its own bank account. As a result, SSA
beneficiaries’ benefit money is co-mingled with other Bayview Medical Center monies.

RESULTS OF REVIEW

Our audit showed that CA generally (1) had effective safeguards over the receipt and
disbursement of Social Security benefits and (2) ensured Social Security benefit
payments were used and accounted for in accordance with SSA's policies and
procedures. However, we identified areas where CA could improve its performance as
a representative payee.

We also identified an area where SSA needs to improve the accuracy of information
contained in its Representative Payee System (RPS). We found CA was the
representative payee for two beneficiaries who were listed as terminated in RPS.

                       Federal regulations state that any benefits that are not needed for
Interest Earned
                       the beneficiary’s current use must be conserved or invested.3
Was Not
                       After a representative payee has used benefit payments, any
Allocated to
                       remaining amount shall be conserved or invested on the
13 Beneficiaries       beneficiary’s behalf.4 Conserved funds should be invested in
                       accordance with the rules followed by trustees.5 Any investment
must show clearly that the representative payee holds the property in trust for the
beneficiary.6 Preferred investments for conserved funds are U.S. savings bonds and
deposits in an interest- or dividend-paying account in a bank, credit union, or savings
and loan association that is insured under either Federal or State law.7

We found there was $22,244 in conserved funds for 13 SSA beneficiaries for whom CA
had not allocated interest to their accounts. We brought this to CA’s attention, and CA
agreed to begin to allocate interest to those beneficiaries on a quarterly basis.




3
  20 C.F.R. §§ 404.2040 and 404.2045 (2002).
4
  20 C.F.R. §§ 404.2045 and 416.645 (2002).
5
  See id.
6
  See id.
7
  20 C.F.R. §§ 404.2045(b) and 416.645(b) (2002).
Page 3 – Laurie Watkins


Separate Bank          SSA policy states that a representative payee may establish
                       collective checking and savings accounts to hold monies belonging
Account Was
                       to several beneficiaries.8 However, a beneficiary’s funds should
Not Established
                       not be mixed with the representative payee’s funds.9 To protect a
beneficiary’s funds, the account title must show the funds belong to the beneficiary and
not the representative payee.10

We found that CA had not established a separate bank account for the beneficiaries in
its care. From July 1, 2002 to July 30, 2003, CA received $674,066 as the
representative payee for SSA beneficiaries. Beneficiary funds were deposited into the
Johns Hopkins Bayview Medical Center, Incorporated, Concentration Account.
However, the account was not properly titled to show the funds belonged to the
beneficiaries. A properly titled account is important because, if the representative
payee has financial problems and/or bankruptcy occurs, beneficiary funds may not be
protected. CA should establish an account for the SSA benefit payments it receives on
behalf of its clients. To guarantee the Federal Deposit Insurance Corporation 11 insures
each beneficiary’s account, the account should be properly titled to show the
beneficiaries are the owners and any interest earned belongs to them.

Direct Deposit       Federal regulations generally require that all Federal payments be
Was Not Used         made by electronic funds transfer (direct deposit).12 Direct deposit
                     is a secure way of receiving payments and protects beneficiaries
                     from the loss, theft, or delays associated with mailing paper
checks. For a representative payee, direct deposit is an effective and efficient process
that saves the time and effort of handling numerous benefit checks. The requirement to
receive payments by direct deposit can be waived if it would impose a hardship on the
individual.13 SSA’s Guide for Organizational Representative Payees encourages the
representative payee to have benefit payments directly deposited into a bank account.

CA received approximately 100 beneficiary payments by check each month rather than
by direct deposit. CA personnel stamped the checks for deposit and prepared the
deposit ticket. The checks were then sent to the cashier at the Bayview Medical Center.
The Bayview Medical Center does not maintain separate accounts for CA’s clients. The
checks are coded with the CA account number. The cash application department at the
Bayview Medical Center enters the amount and code, which interfaces with the general
ledger. This process creates one cumulative transaction.

At the end of each month, CA’s System Administrator prepares a summary report on
the remaining balance in CA’s account. This information is verified to the Cash


8
  POMS, GN 00603.020.
9
  See id.
10
   POMS, GN 00603.010.
11
   Federal Deposit Insurance Corporation insures bank deposits up to $100,000 per account.
12
   31 C.F.R. § 208.3 (2002).
13
   31 C.F.R. § 208.4 (2002).
Page 4 – Laurie Watkins


Application report. Based on this reconciliation, adjustments are made to the general
ledger.

Because multiple employees have access to benefit checks before deposit, there is a
risk of theft and/or loss. The use of direct deposit minimizes this risk. To better protect
the beneficiaries’ monies, CA should have the beneficiaries’ checks directly deposited
into a separate bank account.

Not All Beneficiaries       The Omnibus Budget Reconciliation Act of 1990 requires that
Were Recorded in            SSA provide for specific identification and control of all
the RPS                     representative payees and the beneficiaries they serve.14 As
                            a result, SSA established the RPS, an on-line system for
entering and retrieving information about representative payees and those applying to
be representative payees. RPS contains data about representative payee applicants,
beneficiaries in the representative payee’s care, and the relationship between the
representative payee and the beneficiaries. In addition, SSA uses the RPS to select a
sample of beneficiaries for review during its site visits of representative payees.

To determine the number of beneficiaries in CA’s care, we compared CA’s records of
beneficiaries to SSA’s records of beneficiaries in RPS. We identified two beneficiaries
for whom CA served as the representative payee who were not recorded in RPS.
However, according to a query of SSA’s Supplemental Security Record, these two
individuals were in current pay status and had selected CA as their representative
payee.

CONCLUSIONS AND RECOMMENDATIONS

Generally, CA (1) had effective safeguards over the receipt and disbursement of Social
Security benefits and (2) ensured Social Security benefits were used and accounted for
in accordance with SSA’s policies and procedures. However, CA should allocate
interest to the conserved fund balances of SSA beneficiaries, establish a separate bank
account for SSA benefit payments and use direct deposit for receiving SSA benefit
payments.

We recommend that SSA:
1. Request that CA allocate interest to the conserved funds of SSA beneficiaries.

2. Request that CA establish a separate bank account for beneficiary payments.

3. Request that CA establish direct deposit for all beneficiaries in its care.

4. Correct RPS to include all beneficiaries for whom CA was selected as a representative
   payee.


14
     42 U.S.C. § 405(j)(2) (2002); POMS, GN 00502.120.
Page 5 – Laurie Watkins



AGENCY COMMENTS

SSA agreed with our recommendations. The full text of SSA’s comments is included in
Appendix D.

REPRESENTATIVE PAYEE COMMENTS

CA agreed with our recommendations. The full text of CA’s comments is included in
Appendix E.

OTHER MATTER

One method SSA uses to monitor representative payees is the Representative Payee
Report (RPR). The RPR is intended to assist SSA in determining the (1) use of benefits
during the preceding 12-month reporting period, (2) representative payee’s continuing
suitability, and (3) continuing need for representative payment.15 Depending on the
representative payee’s responses, SSA may contact the representative payee to
determine its continued suitability.

As part of our audit, we planned to review a sample of completed RPRs to determine
whether CA met its reporting responsibilities. We requested the most recently
completed RPRs for 30 beneficiaries. SSA was able to provide all 30 RPRs. However,
two of these reports were several years old and we could not determine whether the
information was reasonable or CA had properly submitted the RPRs.




                                              S
                                              Steven L. Schaeffer




15
     POMS, GN 00605.001.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Background

APPENDIX C – Scope and Methodology

APPENDIX D – Agency Comments

APPENDIX E – Representative Payee Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                       Appendix A
Acronyms
CA       Creative Alternatives

C.F.R.   Code of Federal Regulations

OASDI    Old-Age, Survivors and Disability Insurance

POMS     Program Operations Manual System

RPR      Representative Payee Report

RPS      Representative Payee System

SSA      Social Security Administration

SSI      Supplemental Security Income

U.S.C.   United States Code
                                                                                     Appendix B
Background
Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted SSA the authority
to appoint representative payees to receive and manage these beneficiaries’1 benefit
payments.2 A representative payee may be an individual or an organization. SSA
selects representative payees for Old-Age, Survivors and Disability Insurance (OASDI)
beneficiaries or Supplemental Security Income (SSI) recipients when representative
payments would serve the individual’s interest.

Representative payees are responsible for using benefits to serve the best interests of
the beneficiary or recipient. Their duties include:

•   using benefits to meet the beneficiary’s current and foreseeable needs;

•   conserving and investing benefits not needed to meet the beneficiary's current
    needs;

•   maintaining accounting records of how the benefits are received and used;

•   reporting events to SSA that may affect the beneficiary's entitlement or benefit
    payment amount;

•   reporting any changes in circumstances that would affect their performance as a
    representative payee; and

•   providing SSA an annual Representative Payee Report accounting for how benefits
    were spent and invested.3




1
  We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI
recipients.
2
  42 U.S.C. §§ 405(j), 1383(a)(2) (2002).
3
  See id.
                                                                     Appendix C
Scope and Methodology
Our audit covered the period July 1, 2002 through June 30, 2003.

To accomplish our objectives, we:

•   Reviewed the Social Security Act and the Social Security Administration’s (SSA)
    policies and procedures pertaining to representative payees.

•   Contacted SSA regional and field office staff to obtain background information about
    Creative Alternatives’ (CA) performance as a representative payee.

•   Obtained from SSA’s Representative Payee System (RPS) a list of individuals who
    were in CA’s care between July 1, 2002 and June 30, 2003.

•   Obtained from CA a list of individuals who were in its care between July 1, 2002 and
    June 30, 2003.

•   Compared and reconciled the RPS and the CA list to identify the population of SSA
    beneficiaries who were in CA’s care between July 1, 2002 and June 30, 2003. The
    population was determined to be 104 beneficiaries.

•   Reviewed CA’s internal controls over the receipt and disbursement of SSA benefit
    payments.

•   Performed the following tests for each beneficiary.

    -   Compared and reconciled benefit amounts paid according to CA’s records to
        benefit amounts paid according to SSA’s payment records.

    -   Reviewed the CA accounting records to determine whether benefits were
        properly spent or conserved on the individual’s behalf.

    -   Traced a sample of expenses to source documents and examined the underlying
        documentation for reasonableness and authenticity.

•   Interviewed 10 beneficiaries to determine whether their basic needs were being met.

•   Reviewed 30 Representative Payee Reports to determine whether CA properly
    reported to SSA how benefits were used.




                                           C-1
We determined CA’s computer processed data to be sufficiently reliable for our intended
use. Further, any data limitations are minor in the context of this assignment, and the
use of the data should not lead to an incorrect or unintentional message. We tested
benefit payment receipts and disbursements recorded in CA's accounting system. We
conducted tests to determine the completeness, accuracy and validity of the data.
These tests allowed us to assess the reliability of the data and achieve our audit
objectives. We performed our audit in Baltimore, Maryland, from August to December
2003. We conducted our audit in accordance with generally accepted government
auditing standards.




                                          C-2
                                                                               Appendix D
Agency Comments
May 20, 2004

OIG DRAFT REPORT, "AUDIT OF CREATIVE ALTERNATIVES - AN
                   ORGANIZATIONAL REPRESENTATIVE PAYEE FOR THE
                   SOCIAL SECURITY ADMINISTRATION" (A-15-04-14033)
                   AUDIT NO. 22003072

We appreciate the opportunity to comment on the draft report of the OIG findings relating to an
audit of Creative Alternatives, a representative payee in Maryland. We have one comment on
the "Results of Review" section. On page 3, mention is made that there were 13 SSA
beneficiaries for whom the payee had not invested conserved funds in an interest-yielding
account, and that the payee agreed to begin allocating interest to these beneficiaries on a
quarterly basis. It isn't clear from the report how the payee intends to do this. Has the payee
moved the funds into an interest-yielding account, or will it allocate interest as if the funds had
been in an interest-yielding account? If the latter, there is no regulatory requirement that the
payee do this. The regulations simply state that interest-yielding accounts are the preferred, not
the required, repository for conserved funds. It has been our experience that a payee will
sometimes opt to invest in a non-interest-bearing account to avoid the costly bank fees
sometimes associated with interest-bearing accounts.

With the following qualifications, we agree with the recommendations made in the subject
report.

With respect to Recommendation #3, while we agree that the use of direct deposit should be
considered, there is currently no directive that mandates the use of direct deposit without
exception by organizational payees. We will encourage Creative Alternatives to consider the use
of direct deposit, unless its response to this report indicates that process would impose a
hardship. Conversely, if it agrees to establish direct deposit, we will work with the payee to
make the appropriate inputs.

With respect to Recommendation #4, if you will furnish us with the names and SSNs of the two
beneficiaries who were not loaded to the Representative Payee System (RPS), we will be happy
to take corrective action.

If you have any questions about our comments, feel free to contact Jim Siegel of our Programs
Support Team at (215) 597-1364


                                              /s/
                                          Laurie Watkins.
                                                                     Appendix E
Representative Payee Comments
June 8, 2004


Steven L. Schaeffer
Assistant Inspector General for Audit
Office of Inspector General
4 L 1 Operations Building
6401 Security Blvd.
Baltimore, Maryland 21235

Dear Mr. Schaeffer:

Thank you for the opportunity to respond to the Office of the Inspector General’s (OIG)
Report: Creative Alternatives An Organizational Representative Payee for the Social
Security Administration (A-15-04-14033) Creative Alternatives (CA) is part of the Johns
Hopkins Bayview Medical Center’s Community Psychiatry Program.

Results of Review, Conclusions, and Recommendations.

The OIG audit reported that “CA generally (1) had effective safeguards over the receipt
and disbursement of Social Security benefits and (2) ensured Social Security benefit
payments were used and accounted for in accordance with SSA’s policies and
procedures.” The audit identified the following recommendations:

   (1) CA deposit conserved funds in an interest – yielding account;
   (2) CA establish a separate bank account for beneficiary payments;
   (3) CA establish direct deposit for all beneficiaries in its care.

Creative Alternatives Response:

   (1) JHBMC has begun allocating interest earned on SSA beneficiary funds effective
       July 1, 2003.
   (2) JHBMC will establish a separate bank account to manage the SSA beneficiary
       funds. The account will be established and in use by September 1, 2004.
   (3) JHBMC will establish direct deposit of beneficiary funds from SSA into the newly
       established bank account. We will attempt to have this process in place by
       September 1, 2004.



                                          E-1
We hope that this plan is acceptable. I can be reached at (410) 550-5667 if you need
further information.

Sincerely,


/s/
Tom Marshall,
Manager
Adult Mental Health Programs
Creative Alternatives
2400 Broening Highway, Suite 180
Baltimore, Maryland 21224




                                         E-2
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Frederick C. Nordhoff, Director, Financial Audit Division

   Vicki Vetter, Audit Manager, (410) 966-9081


Staff Acknowledgments

In addition to the persons named above:

    Judi Kammer, Auditor-in-Charge

    Kristen Schnatterly, Senior Staff Auditor

    Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-15-04-14033.
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.

                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits, assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.

                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
